r\

\

r—

CASE NO.

* \

vtl

f *'

-> i—U

IN THE SUPREME COURT OP THE UNITED STATES

DERYL DUDE NELSON
Petitioner#
V
MIKE BROWN# Acting Warden,
Respondent

CLERK

On Petition for Writ of Certiorari to
the United States Court of Appeals Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

RECEIVED
AUG 2 6 2020

gaaaraa&Bg

TABLE OF CONTENTS
PAGES:
Question Presented For Review
Table of Authorities
Reference to Opinions Below.
State of Jurisdiction

11

iii
iv

Constitutional Provisions

v

Background of Facts

1

State of the Case

2

Argument (I)

,.4

Did the Circuit Court commit a reversible error and
grossly violate petitioner's Due Process when it (1)
overlooked the district court's fact-finding and its
determination that the assistant prosecutor did commit a
fraud on the court by signing the various documents
initiating the prosecution against petitioner (2)
overlooking the district court's reasoning contrary to the
law/authority it cited# that it was without authority to
GRANT petitioner relief from judgment because the fraud
was not committed by a federal officer?
Argument II
Did the circuit court commit Reversible error and grossly
violate petitioner's Due Process when it overlooked the
record and evidence that petitioner presented to support
his request to disqualify the district court's judge for
ignoring the Michigan Court of Appeals ex post facto Law
used to affirm his conviction?
Conclusion.,

9

APPENDIX:
United States Court of Appeals June 16/ 2020/ order denying certificate of
appealability Apx. A
United States District Court's February 14, 2020, order denying Motion to
Recuse Apx. B(l)
United States District Court's February 14/ 2020/ order denying Motion for
relief from judgment Apx. b(2)
United States Court of Appeal July 10/ 2020/ orders denying rehearing en banc.
Apx. C(l)
United States Court of Appeal July 30/ 2020/ order denying rehearing en banc
Apx. C(2)
EXHIBIT:
Transcript Excerpt/ July 18/ 2014 (Motion Hearing) Ex. (1)
Transcript Excerpt/ July 31/ 2014 (direct examination 6f Tr&r*per Keely Cochran
and Felony Complaint) Ex. (2)
Opinion Excerpt/ January 12/ 2016 (Michigan Court of Appeal pp 6/ 1, and 11)
Ex. (3)
Petitioner's January 17, 2020 Motion to Recuse Ex. (4)

QUESTION(S) PRESENTED FOR REVIEW

Did the Circuit Court coranit a reversible error and grossly violate
petitioner's Due Process when it (1) overlooked the district court's
fact-finding and its determination that the assistant prosecutor did commit a
fraud on the court by signing the various documents initiating the prosecution
against petitioner (2) overlooking the district court’s reasoning contrary to
the law/authority it cited# that it was without authority to GRANT petitioner
relief from judgment because the fraud was not committed by a federal officer?

Did the Circuit court commit a reversible error and grossly violate
petitioner's Due Process when it overlooked the record and evidence that
petitioner presented to support his request to disqualify the district court's
judge for ignoring the Michigan Court of Appeals ex post facto Law used to
affirm his conviction?

i

TABLE OF AUTHORITIES

CASE:

PAGES:

Bouie v Columbia 378 U.S. 347, 12 LEd 894, 84 SCt 1697 (1964).........
Buell v Anderson 48 F. App'x 491, 499 (6th Cir 2002)..........................

9
3,5,6,12

Ex parte Lange 85 (18 Wall) 163; 21 LEd 872 (1973)...........................
Ex parte Siebold 100 U.S. 371 (1880)....................................................

8

8
Gluaksman v Henkel 221 U.S. 508; 31 SCt 704; 55 LEd 80 at 5 (1911).
7,9
Hamilton v McCotter 772 F2d 171, 182, 183, 184, 185 (5th Cir. 1985)
8
Hazel-Atlass Glass Co. v Hartford-Empire Co. 332 U.S. 238, 244 (1949).6,8,9,12
Herrera v Collins 506 U.S. 390, 400; 122 LEd 2d 203; 113 SCt 853 (1993)
7
Kalina v Fletcher 522 U.S. 118, 122 (1997).............................................
7
Liteky v United States 510 U.S. 540, 555 (1994)................................... .
Olsen v McFaul 843 F2d 918, 931 (6th Cir. 1988).........................................

10
9
2

Stone v Powell 428 U.S. 465 , 494-95 (1976)............... ...................................

Teva Pharma, USA Inc. v Sandoz Inc. 574 U.S. 318; 135 SCt 831; 190 LEd 2d 719
2d 719 (2015)............................................................................................ ..................... 5
United States v Beggerly 524 US 38, 29; 118 SCt 1862; 141 LEd 2d 32 (1988)...6
Workman v Bell 227 F3d 331, 336, 341 (6th Cir 2000) en banc
3
CONSTITUTION:
Fourth Amendment....
Fifth Amendment.....
Fourteenth Amendment

...1,7,9,12
..6,7,10,11
1,6,7,10,11

STATUTE:
28 USC § 1254(1)

iv

28 USC § 455(a).
18 USC § 1962(d)
18 USC § 2384...

2,10
4
4

RULE:
Rule 60(b)....................
Rule 60(b)(1)...............
Fed R. Civ. P 52(a)(6)

2,3,8
3
5,6

REFERENCE TO OPINIONS BELOW

The June 16/ 2020 opinion of the United States Court of Appeal for the
Sixth Circuit. Apx. A. The July 10, 2020, United States Court of Appeals for
the Sixth Circuit order denying rehearing en banc. Apx C(l). The July 30,
2020, United States Court of Appeals for the Sixth Circuit order denying
rehearing en banc. Case No. 20-1190-1210. Apx C(2).
The February 14/ 2020/ opinion and order of the United States District
Court Eastern District of Michigan denying the motion to disqualify. Case No.
2:16-cv-12260. Apx B(l).
The February 14, 2020 opinion and order of the United States District
Court Eastern District of Michigan denying the motion for relief from
judgment. Apx B(2).
The above-stated opinions and orders are all reproduced in the appendix
of this petition.

iii

STATEMENT OF JURISDICTION

This matter is before this Honorable Court pursuant to a petition for
writ of certiorari. Petitioner seeks review of the June 16# 2020# order
.denying petitioner certificate of appealbility from the United States Court of
Appeals for the Sixth Circuit and its July 10# 2020 and July 30# 2020# orders
denying rehearing en banc. This Court not has lawful jurisdiction to entertain
this petition for writ of certiorari pursuant to 28 U.S.C. § 1254(1).

iv

CONSTITUTIONAL PROVISIONS

U.S. Constitution Amendment IV
The right of people to be secure in their persons, houses/
papers/ and effects/ against unreasonable searches and
seizures/ shall not be violated/ and no Warrant shall
issue/ but upon probable cause/ supported by Oath or
affirmation# and particularly describing the place to be
searched/ and the person or thing to be seized.
U.S. Constitution Amendment V
No person shall be held to answer for a capital/ or
otherwise infamous crimes/ unless on a presentment or
indictment of a Grand Jury/ except in cases arising in the
land or naval forces/ or in the Militia/ when in actual
service in time of War or public danger; nor shall any
person be subject for the same offense in any criminal
case to be a witness against himself/ not be deprived of
life/ liberty/ or property/ without due process of law;
not shall private property be taken for public use/
without just compensation.
U.S Constitution Amendment XIV Section 1
All persons born or naturalized in the united States/ and
subject to the jurisdiction thereof/ are citizens of the
United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; not shall any state deprive any person of life/
liberty/ or property/ without due process of law; not deny
to any person within its jurisdiction the equal protection
of laws.

V

BACKGROUND OF FACTS
Petitioner Nelson was tried in Wayne County (Michigan) Circuit Court on
charges of second-degree murder and reckless driving causing death* Petitioner
Nelson challenged the trial court's jurisdiction and authority to try him
without a sworn complaint mandatory to bring the case within the provision of
law* Exhibit (l)pp. 3-15*
Not only did the motion hearing reveal that no sworn complaint existed it
revealed that the complaint was signed by someone not identified as the
complaint witness in the complaint. Exhibit (1) p. 8* The trial court did not
establish nor deny that it lacked jurisdiction. However# the defense counsel
had gave consent to its jurisdiction and illegally proceeded to trial. Exhibit
(1) p* 13.
During trial, state Trooper Sergeant Keely Cochran identified in the
criminal complaint as the complaining witness appeared in court as a witness
not for the prosecutor# but for the defense and denied making the complaint
against Petitioner Nelson. Exhibit (2) p. 107. Petitioner was thereafter
convicted. (The essential element of forgery was before the court).
Petitioner Nelson appealed his illegal conviction directly to the
Michigan Court of Appeal* Petitioner Nelson asserted that no sworn complaint
existed and that the court officer signed the complaint as the complaining
witness and that the trial court lacked subject-matter jurisdiction and its
judgment is null and void. (The essential element of forgery was before the
court).
The Michigan Court of Appeals did not deny that the complaint was not
sworn to. However# contrary to state law and to the Fourth and Fourteenth
A

nt to the united States Constitution it stated that the signed

complaint met the statutory requirement for initiating the prosecution and for

1

the issuance for an arrest warrant. Ex (V) ftp.

7, The Court affirmed

petitioner’s conviction.
Petitioner Nelson sought denied leave to appeal by the Michigan Supreme
Court.
Petitioner Nelson sought from the Dnited States District Court habeas
relief/ for among other things# that the state trial court lacked subject
jurisdiction because the complaint was a forgery and unsworn to. The district
court applied Stone v Powell 428 U.S. 465# 494-95 (1976)# to deny petitioner's
jurisdiction claim and habeas relief. The district court did not address
whether or not the complaint was sworn to or forged.

STATEMENT OF THE CASE
Petitioner sought a certificate of appealability from the Dnited States
Court of Appeals for the Sixth Circuit from the Michigan Eastern Dnited States
District Court pursuant to ROLE 60(b) motion for relief from judgment and
pursuant to 28 D.S.C. § 455(a) motion to recuse. The cases were consolidated
and denied.
For case no 20-1190. petitioner among other things# raised claim (1) that
the Wayne County's assistant prosecutor committed "fraud on the court” by
forging the signature of the complaining witness on a criminal complaint
initiating the prosecution and claim (2) that the district court committed
fraud on the court when it willfully ignored that petitioner raised a "forged
complaint" argument during habeas review.
For case no 20-1210 petitioner petitioned to move the district court for
a new judge on the ground that the judge was partial and ignored# turning a
blind eye to the Michigan Court of Appeals use of an ex post facto law to
affirm petitioner's illegal conviction. Ex. 4. The district court denied the
motion to recuse without denying the allegations. Apx. 6(1)

The district court contended

that petitioner's claim

(2)

"forged

complaint" argument is barred pursuant to RULE 60(b)(1) and declined to go
into the merit of the claim. However/ the district court did make fact
findings for claim (1) "fraud on the court" and determined that the assistant
prosecutor did commit fraud on the court by signing the various documents
initiating the prosecution against petitioner.
The district court held firm that the the fraud on the court must have
been committed on the federal court by a federal officer of the court and it
was without authority to grant petitioner relief from judgement pursuant to
Buell v Anderson 48 F. App'x 491/ 499 (6th Cir 2002)(citing Workman v Bell/
227 F. 3d 331, 336, 341 (6th 2000)(en banc).
The district court stated:
Petitioner's "fraud cn the court" claim is without merit/ heraae he failed
to dhai that ary alleged fraud was connitted by an officer of this Court.
(erphasis supplied). 3h cedar for a claim of fraud cn the court to succeed/
so as bo permit relief form a state ocnvicticn pursuant to Bad. R. Civ P. 60,
"the fraud must have been connitted by an offio^r of the federal habead trial
cr appellate courts. "Buell v Andersen 48 F. App'x 491, 499 )6th Cir
2002)(citing Wcrtoan v Bell 227 F.3d 331, 336, 341 (6th Cir. 2000)(en bar:)).
The assistant prosecutor was not acting as an officer of the federal habeas
court when, while acting in his capacity he sloped the various documents
initiating the prosecution against petitioner, thus, the "fraud upen Ihe
cart" exception does not apply to permit petitioner to relief firm judgrent.
Id Appoc. B(2)p.3
The circuit court overlooked the district courts fact finding of fraud on
the court committed by the assistant prosecutor. The circuit court stated in
relevant part:
Ch Septaiber 12, 2019/ Nelson filed a Baderal Rule of Civil Procedure 60(b)
notion fix relief from judbpent, arguing that the district court judge
connitted fraud by failing to achfcess his allegation that a signature cn the
criminal cntplaint was forged. Nelson also argued that the district court
failed to acbkess "an audio recording of a phone conversation where
[attorney] was lying to [him] about the motions that he wee retained to
filed" and failed to include a letter as part of the record.

3

Nelscn also filed a ncticn to disqualify the district ocurt arguing that ehe
was biased and partial because she refused to recoyoae that the had raised a
neritceicus argument in his habeas petitim. He ccnbendad that the judge’s
ccnctct aianted to a vidaticn of the Rachefcset Ihfluenoed and Cfcmpt
Cfcganizaticns Act IS D.S.C § 1962(d)/ and a conspiracy to cverthrow cr
destroy the United States government, in violation of IS U.S.C. § 2384.
The district court denied Nelson's Rule 60(b) ncticn, finding that he failed
to allege that an officer cf the federal habeas court admitted fraud. It
noted that, to Ihe extort that Nelscn alleged that the assistant prosecutor
forged a signature cn the charging docunents, he was alleging a fraud
admitted cn the state court. It further found that, the the extent that
Nelscn alleged that it failed to address his claim about the forged
eaiplaint, his ncticn was untimely because it was not filed within cne year
cf the challenged judgnsrit. Ihe district court declined to issue a GOA and
denied leave to proceed IFP cn appel. Nelscn file a notice of appeal and that
appeal is docketed as Case Nunfoer 20-1190. The district court also denied
Nelson's motion disqualifying that its prior adverse rulings were
insufficient to show judicial bias. Nelson filed a notice of appeal
challenging the denial of his notion to disqualify, and tint appeal has been
docketed as Case Nutber 20-1210. Nelscn filed two CCA applications/ which the
district court transferred to this court.
In the GOA application that Nelscn filed in this aourt in Case Huber
20-1190, Nelson reiterates his argument that the district court crnnitted
fraud vhen it failed to grant relief cn his claim that the criminal carplaint
filed in state court contained a forged sicpature, He maintains that his
convictions "are illegal and wholly unjust." Nelscn also argues that the
district court has inherent power to grant relief for fraud upon the court
that is not discovered until well after earlier judgment issued. Nelson's
notion to remacfy a jurisdictional defect sinply argues the madts of his
claim that the criminal carplaint was invalid because it was not signed under
oath.
In the CCA application that Nelson filed in Case Nunber 20-1210. Nelscn
argues that the district court judge drall have recueed herself harawp it
was apparent frar, the face cf his habeas petition and exhibits that the
Michigan Cburt cf Appeals "made [a] mockery of the federal Constitution" when
it found that the criminal carplaint oarplied with the requrirevent of
Michigan law. He contends that the judge "willfully igxred" this claim when
ruling cn his habeas petition. Appsc. A.

ARGUMENT I
Did the circuit court commit a reversable error and
grossly violate petitioner’s Due Process when it (1)
overlooked the district court’s fact-finding and its
determination that the assistant prosecutor did commit a
fraud on the court by signing the various documents
initiating the prosecution against petitioner (2)
overlooked the district court's reasoning, contrary to
law/authority it cited, that it was without authority to
GRANT petitioner relief from judgment because the fraud
was not committed by a federal officer.

4

DISCUSSION:
Fed. R. Civ P. 52(a)(6) states in relevant part that a Circuit of Appeals
must not set aside a District Court’s findings of fact unless they are clearly
erroneous. Teva Pharma# USA# Inc v Sandoz, Inc.# 574 US 318# 135 S.Ct 831# 190
LEd 2d 719 (2015).
Here# the Circuit Court diverted from the standard provided by Rule
52(a)(2)

in

reviewing

petitioner's

application

for

certificate

of

appealability. The circuit court determined that petitioner was not entitled
to COA and relief from judgement was properly denied in its convenience of
overlooking the district court’s finding of "fraud on the court" that the
assistant prosecutor did commit.
If the circuit court would not have overlooked the finding of fact by the
district court the circuit court would have had overcome the burden of
providing that the district court applied Buell v Anderson 48 F. App'x 491#
494 (6th Cir. 2002) correctly to have denied petitioner relief from judgment.
Where in that case the Sixth Circuit court had established an exception that
if a state trial prosecutor commits a fraud on the state trial court mandates
an evidentiary hearing and relief from judgment will be permitted upon
conclusion that the habeas counsel was privy to the state trial prosecutor's
fraud. Buell supra at 500.
Here# the circuit court would also have had to overcome the burden of
proving that petitioner did not satisfy the exception in Buell. In Buell the
petitioner had alleged that the state trial judge committed fraud on the court
accordingly his claim failed because the state's trial judge was not a federal

5

officer nor was he under the prosecution's chain of command. The 6th Circuit
Court stated in pertinent part:
an allegation of fraud against the state trial prosecutors
could be sufficient to mandate an evidentiary hearing on
whether the state's habeas counsel committed the same
fraud on the habeas courts. However/ Buell here accuses
not the state's trial counsel of misconduct/ but rather
the state trial judge, A judge is not part of the
prosecution team.... at 500.
Here the district court positively declared that the assistant prosecutor
did comnit a fraud on the Court. Therefore/ Buell v Anderson was appropriate
authority to remedy the fraud and permit petitioner relief from judgment.
However, the district court contrary to law denied the remedy. This error
warrants reversal. Siic.

p. S.

The Fifth and the Fourteenth Amendment to the United States Constitution
hold/ “No person shall be deprived of life/ liberty/ or property/ without due
process of law."
The circuit court is bound by the district courts fact-finding and
overlooking of its findings of facts violated petitioner's due process, The
circuit court failed to make an attempt to reach the merit to disprove the
district court’s fact-finding pursuant to Fed. R. Civ. P. 52(a)(6) resulted in
a miscarriage of justice. United States v Beggerly 524 U.S. 38/ 49/ 118 S.Ct
1862, 141 L.Ed 2d 32 (1988).
A fraud on the court is the most HATED fraud there is and once a fraud on
the court had been declared to exist it MOST BE REMEDIED, Hazel-Atlas Glass
Co. V Hartford Empire Co./ 332 U.S. 238 , 294 (1944), AND THERE IS NO EXCEPTION
TO THIS RULE OF LAW.

6

THIS PETITION FOR WRIT OF CERTIORARI SHOULD BE GRANTED.
Moveover, petitioner point out to this Court's attention that the type of
"fraud of the court" that the district court declared that the assistant
prosecutor committed

by

signing

the

various

document

initiating

the

prosecution against him reflect a Fourth Amendment violation described in
Kalina v Fletcher 522 O.S. 118 (1997). See Apx B(2) p.3. Federal habeas courts
sit to ensure that individuals are not imprisoned in violation of the
Constitution/ not to correct errors of fact. Herrera v Collins# 506 O.S. 390#
400/ 122 LEd 2d 203, 113 S.CT 8553 (1993).
And if the Habeas counsel was not privy to the state trial assistant
prosecutor's fraud it would have resolved the matter on its own motion, see
Kalina v Fletcher 522 O.S. at 122, instead it sought for the habeas court to
enforce the judgement obtained by fraud and without probable cause to be
sustain in violation of petitioner's 5th and 14th Amendment right to the
United States Constitution.
The Fourth Amendment to the United States Constitution states:
The right of the people to secure in their persons,
houses, papers, and effects, against unresonable searches
and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be
searched , and the persons or things to be seized.
The Court held in Glusksman v Henkel 221 U.S. 508; 31 S.Ct 704, 55 L.Ed
850 (1911) at 5, that Without a sufficient complaint on oath there is no
jurisdiction to issue the warrant. THIS PETITION FOR WRIT OF CERTIORARI SHOULD
BE GRANTED.

7

A. The Sixth Circuit Court of Appeals is in conflict with another Circuit
Court of Appeals in regard to the well established principle for a
jurisdictional challenge.
The O.S. Court of Appeals for the Fifth Circuit in Hamilton v McCotter/
772 F. 2d 171, 182, 183, 184, 185 (5th Cir. 1985), understand that a wholly
forged indictment would not confer criminal jurisdiction to the state trial
court and that the "conviction" would be void. In that case it was alleged
that the foreman's signature was forged and was grounds for a remand.
Here, the Sixth Circuit failed to recognize that petitioner's "forged
complaint" claim (2) related to the jurisdiction of the convicting court and
that a jurisdictional claim can be raised at any time and Rule 60(b) does not
and can not preclude a jurisdictional challenge and that signature forged
voids the document that the signature lies on.
B. The Sixth Circuit Court of Appeals ignore this Court's precedents in
regards to the well established principle for a jurisdictional challenge.
The Sixth Circuit Court has ignored this Court's precedents hold that the
lack of subject-matter jurisdiction in the convicting court has long been a
basis for habeas relief. Ex part Lange 85 U.S. (18 Wall) 163; 21 LEd 872
(1973): Ex parte Siebold, 100 O.S. 371 (1880).
C. The Sixth Circuit Court of Appeal ignored this Court's precedent in regard
to the well established principle for correcting injustice.
The Sixth Circuit failed to cite any authority that states that
petitioner is barred from raising a jurisdictional claim via Rule 60(b)
alleging that his "felony complaint was forged," in which, the district court
determined that it was, while it addressed petitioner's claim (1) establishing
"the assistance prosecutor committed fraud chi the court." Apx B (2) p. 3. The
circuit court however, cited Hazel-Atlass Glass Co v Hartford-Empire Co. 332

8

D.S. 238, 244 (1949), it consequently failed to ahere and follow this Court's
authority and principle to correct injustice. This Court held that appellate
court had both the duty and the power to vacate its own judgment and to give
the trial court appropriate directions. THIS PETITION FOR WRIT OF CERTIORARI
SHOULD BE GRANTED.
ARGUMENT II
Did the circuit court commit a reversible error and
grossly violate petitioner's due process when it
overlooked the record and evidence that petitioner
presented to support his request to disqualify the
district court's judge for ignoring the Michigan Court of
Appeals ex post facto Law used to affirm his conviction?
DISCUSSION:
The circuit court overlooked petitioner's evidence that the district
court judge ignored the Michigan Court of Appeals ex post facto Law that
violated petitioner's due process. The Sixth Circuit in Olsen v McFaul 843
F.2d 918, 931 (6th Cir. 1988) stated, 'In Bouie v Columbia 378 U.S. 347, 12 L
Ed 894, 84 S.Ct 1697 (1964), the Supreme Court held that, when a state
appellate court affirms a conviction by constructing a statute in a new and
unexpected manner, thereby making criminal what previously was not recognized
as such, the conviction violates the due process clause and must be reversed."
The Michigan Court of Appeals reasoned that a "signed" complaint (rather
than a sworn complaint) satisfied the statutory requirement to confer
jurisdiction for the issuance for a warrant negates the Fourth Amendment to
the United States Constitution and is contrary to Gluakman v Henkel 221 US
508 ; 31 S.Ct 704, 55 L Ed 850 at 5 (1911), this Court held that, without a
sufficient complaint on oath there is no jurisdiction to issue the warrant.
Ex. (3) pp 6, 7, 11.

9

Because the district court judge failed to correct the ex post facto law
that the Michigan court of Appeals had set in place as competent law to affirm
petitioner's conviction/ petitioner felt this was sufficient evidence and
cause to have the district court's judge to be disqualified. However/ the
circuit court overlooked this evidence stating:
Reasonable jurists also could not debate the district
court's conclusion that Nelson's motion to recuse was
meritless/ because his arguments were based solely upon
the district court's decision to deny habeas relief.
"[O] pinion formed by the judge on the basis of facts
introduced or events occurring in the course of the
current proceedings...do not constitute a basis for a bias
or partiality motion unless they display a deep-seated
favoritism or antagonism that would make fair judgment
impossible. Liteky v United States# 510 U.S. 540# 555
(1994). Nelson cited nothing outside of his current habeas
proceeding to support his allegation of bias# and he did
not set forth any facts to indicate that the district
court judge "display[ed3 a deep-seated favoritism or
antagonism.” Id Apx. A.
In Liteky supra# 510 U.S. at 554 this Court stated:
The fact that an opinion held by a judge derives form a
source outside judicial proceedings is not a necessary
condition for "bias or prejudice" recusal# since
predispositions developed during the course of a trial
will sometimes (albeit rarely) suffice.
Here petitioner did not have to "cite nothing outside of his current
habeas proceeding to support his allegation of bias" pursuant to Liteky supra#
the record can be used to recuse a judge. It's the circuit court# not the law#
that required petitioner to find facts outside of the record. Petitioner had
satisfied 28 U.S.C. 455(a). See Ex (4) and Ex. (3).
Petitioner# not the circuit court has the Fifth and Fourteenth Amendment
Constitutional DUE PROCESS RIGHT to use the law in whole or in part how he
sees fit. Where the law gives options to petitioner to use# the circuit court

10

can not obstruct justice to limit the law to its liking and doing so put
petitioner here at a disadvantage that resulted in this "grave miscarriage of
justice" that is before this Honorable Court. It is petitioner’s life and
liberty that is here at stake, not the circuit court's. Therefore, a reversal
and remand is required for this issue.
The Fifth Amendment to the United States Constitution specifically
states:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentation or
indictment of a Grand Jury, except in cases arising in the
land or in the Militia, when in actual service in time of
War or public danger; not shall any person be subject for
the same offence to be twice put in jeopardy of life or
limb; not shall be compelled in any criminal case to be a
witness against himself nor be deprived of life, liberty
or property, without due process of law: nor shall private
property be taken for public use, without just
compensation.
(emphasis added)
The Fourteenth Amendment to the United States Constitution specifically
states:
All persons bom or naturalized in the United States, and
subject to the jurisdiction thereof are citizens of the
United States and of the State where they reside, No State
shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States;
___
nor shall any State deprive any person of life, liberty,
or property without due process of law: nor deny to any
person within its jurisdiction the equal protection of the
laws.
(emphasis added)
THIS PETITION FOR WRIT OF CERTIORARI SHOULD BE GRANTED.

11

CONCLUSION
This district court relied on Buell v Anderson 48 F. App’x 491/ 499 (6th
Cir. 2002)/ to deny petitioner relief from judgement and failed to recognize
that there was an exception in Buell supra/ to grant relief and petitioner
satisfied that exception.
The circuit court should not be allowed to have its jurisdiction stand in
the space of omissions. The circuit court overlooked petitioner's complete
defense to the district court's denial for relief from judgement. This Court
must hold the circuit court accountable for its flagrant omission and its
injustice. This Court pursuant to Haze-Atlass Glass Co. v Hartford-Emprie Co.
332 D.S 238 (1949) must issue an order and directions to the circuit court to
apply the correct remedy to the district court's findings of fact for the
"fraud on the court' it declared that the assistant prosecutor ccmmittedy in
which/ also resulted in a continual Fourth Amendment violation. Petitioner/
therefore/ respectfully requests that this Court GRANT CERTIORARI to resolve
these miscarriages of justice.
The circuit court ignored petitioner's complete defense to disqualify the
district court judge when it ignored petitioner’s evidence that the district
court judge turned a blind eye to the Michigan Court of Appeals use of an ex
post facto Law and failed to correct such Law. Therefore/ this request for
certiorari should be GRANTED.
For these reasons/ Petitioner Nelson asks that this Court GRANT this
petition for a writ of certiorari.
Date

submitted

y r.n/?.9c>ao

lelson #348736“
Petitioner In Pro Se
Kinross Correctional Facility
4533 W. Industrial Park Dr.
Kincheloe/ MI 49788

12

